      DEFENSE LOGISTICS AGENCY CUSTOMER RETURNS
           IMPROVEMENT INITIATIVE PROGRAM


Report No. D-2001-002                October 12, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:
                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CRII                  Customer Returns Improvement Initiative
DLA                   Defense Logistics Agency


                                                                                        1
                        Office of the Inspector General, DoD
Report No. D-2001-002                                                   October 12, 2000
   (Project No. D2000CF-0111)

                 Defense Logistics Agency Customer Returns
                      Improvement Initiative Program

                                Executive Summary

Introduction. This is one of two reports being issued by the Inspector General, DoD,
which addresses various aspects of the Defense Logistics Agency Product Verification
Program. This report addresses the management of the Customer Returns
Improvement Initiative Program. This program was established in August 1997 to
reduce the likelihood that potentially defective assets would be returned to Defense
Logistics Agency depots. As of May 2000, the agency’s Defense Supply Centers listed
over 5,700 types of assets subject to screening procedures if received as customer
returns.

Objectives. The overall objective was to determine whether the Defense Logistics
Agency was effectively managing the Product Verification Program. Specifically, the
audit was to determine how products were selected for testing and whether the
program’s testing plan was adequate. The audit also determined whether the Product
Verification Program managers and quality assurance specialists were using the test
results to purge nonconforming inventory from the Defense Logistics Agency depots
and whether contractor problems were identified. This report discusses the methods
that the Defense Logistics Agency used to screen nonconforming inventory. In a
subsequent report, we will discuss the other objectives as well as the Defense Logistics
Agency’s management control program as it relates to product testing.

Results. The Defense Logistics Agency did not fully implement the Customer Returns
Improvement Initiative Program. Therefore, all depots could not screen and suspend
potentially nonconforming assets received through customer returns. The Defense
Supply Centers did not regularly transmit listings of nonconforming assets to the depots
that participated in the program, nor did they consistently provide all necessary
information to distinctly identify the assets. As a result, as many as 28 percent of the
Defense Logistics Agency’s returned assets, comprised of over 176,000 individual
supplies and spare parts that had been identified as potentially defective and returned to
the depots, were not screened and could be reissued to customers without qualification.
Conversely, the lack of detailed information on nonconforming assets forwarded to the
depots may have resulted in some assets being unnecessarily suspended.

Summary of Recommendations. We recommend that the Director, Defense Logistics
Agency establish the Customer Returns Improvement Initiative Program in all depots;
issue timely and updated information about nonconforming assets to the depots; and
submit detailed information on nonconforming assets to the depots.
Management Comments. The Defense Logistics Agency generally agreed with the
recommendation to establish the Customer Returns Improvement Initiative Program in
all depots. The agency stated that the Customer Return Improvement Initiative
Program was only instituted at the two Primary Distribution Sites because these depots
also operate a product test center that can inspect suspected customer returns for
technical conformance. The Defense Logistics Agency further commented that it would
be fiscally imprudent to establish a product test center at each depot. Nevertheless, the
Defense Logistics Agency agreed to implement screening of all Customer Returns
Improvement Initiative returns; use the most cost effective means to verify technical
performance prior to processing questioned items into issuable inventory status; update
the listing of potentially nonconforming assets on a quarterly basis; and provide
additional identifying information on potentially nonconforming assets to the depots.
See the Finding section of the report for a discussion of management comments and to
the Management Comments section of the report for the complete text of the comments.

Audit Response. The Defense Logistics Agency comments are responsive to our
recommendations. We did not recommend establishing product test centers in
conjunction with the Customer Returns Improvement Initiative Program at each depot.
We recommended establishing an effective program at all depots for screening
potentially nonconforming assets received through customer returns.




                                           ii
Table of Contents

Executive Summary                                       i


Introduction
     Background                                         1
     Objectives                                         1

Finding
     Customer Returns Improvement Initiative Program    2


Appendixes
     A. Audit Process
          Scope                                         9
          Methodology                                   9
          Prior Coverage                               10
     B. Nonconforming Assets Available for Issue       11
     C. Report Distribution                            15

Management Comments
     Defense Logistics Agency                          17
Introduction

     This is one of two reports being issued by the Inspector General, DoD, which
     addresses various aspects of the Defense Logistics Agency (DLA) Product
     Verification Program. This report addresses the management of the Customer
     Returns Improvement Initiative (CRII) Program.

Background

     Product Verification Program. The Product Verification Program was
     established with the creation of DLA Directive 4105.20, “Product Verification
     Program for Inventory Control Points,” January 20, 1995, to consolidate test
     program management and activities for improved efficiency, consistency and
     reduced operational cost. Each Defense Supply Center establishes and
     maintains a Product Verification Program to identify assets that do not meet
     technical requirements. The DLA directive mandates that tests be conducted on
     a random and directed basis.

     Customer Returns Improvement Initiative Program. The CRII program was
     established in August 1997. The CRII is managed by the Headquarters, DLA
     Product Verification Program Office and was established to reduce the
     likelihood that DLA depots received nonconforming returned assets. Items
     having a history of past customer complaints were selected for inspection and
     testing. Quality assurance specialists, responsible for ensuring that products
     conform to established technical requirements, provide specific instructions to
     depot personnel to identify failed specifications reported by customers.
     Customer complaints are logged into the automated Distribution Standard
     System. The automated system was designed to process depot asset
     transactions. As of May 2000, the agency’s Defense Supply Centers listed over
     5,700 potential assets subject to screening procedures if received as customer
     returns. This program was established at three Defense Supply Centers and two
     DLA primary distribution sites or prime depots: San Joaquin, California, and
     Susquehanna, Pennsylvania.

Objectives

     The overall objective was to determine whether DLA was effectively managing
     the Product Verification Program. Specifically, this report discusses the
     methods DLA used test results relating to the CRII program to keep
     nonconforming assets from its inventory and ultimately from its customers. We
     will discuss the management control program in a subsequent report.




                                        1
                    Customer Returns Improvement
                    Initiative Program
                    Headquarters, Defense Logistics Agency limited the effectiveness of the
                    Customer Returns Improvement Initiative Program by not extending the
                    program to all depots. In addition, the depots that participated in the
                    program did not receive information to distinctly identify the assets, or
                    the information was not regularly transmitted. These deficiencies
                    occurred because the program was limited to the prime depots and
                    procedures were not established to uniformly and consistently notify the
                    depots of nonconforming assets. As a result, as many as 28 percent of
                    the Defense Logistics Agency returned assets, comprised of over
                    176,000 individual assets that were identified as potentially defective and
                    received through customer returns, were not screened and eliminated
                    from inventory. Conversely, some assets may have been unnecessarily
                    suspended from distribution.

Customer Return Policy
           Program Implementation. Product Quality Deficiency Reports have been used
           for several years to report deficiencies in government-owned products,
           materials, and equipment back to the Defense Supply Centers. The Defense
           Supply Centers developed and maintained the CRII listing of nonconforming
           (potentially defective)1 assets based on the reports and recommendations from
           quality assurance specialists and military customers. The CRII listing was
           forwarded to the depots for entry into the Distribution Standard System. All
           available information from the listings describing the asset deficiency was
           entered into the Distribution Standard System at the depot. When assets were
           received through customer returns at the depot, personnel responsible for receipt
           and inspection of assets checked the Distribution Standard System for special
           suspension or disposition instructions and directed the action accordingly.

Application of the Customer Returns Program
           Defense Supply Centers Listings. Assets that were selected for inspection had
           a history on at least one Product Quality Deficiency Report detailing the
           customer complaint. Quality assurance specialists also assigned assets with
           previous contractor or quality problems to the program. The program listings
           were compiled for those assets managed at each Defense Supply Center. As of
           May 2000, there were over 5,700 assets from the supply centers listings that
           were subject to review in this program.

1
    Nonconforming refers to failure to meet prescribed specifications, standards or other contractual
    requirements related to quality or function.

                                                       2
    Limited Application of the Customer Returns Program. DLA administered
    the CRII program on a limited basis. Listings of nonconforming customer
    returned assets were submitted to the following prime depots, or primary
    distribution sites: San Joaquin (Tracy and Sharpe Depots, California), and
    Susquehanna (Mechanicsburg and New Cumberland Depots, Pennsylvania).
    Non-prime depots (depots not designated as primary distribution sites) were not
    part of the program. DLA contended that when the program originated, non-
    prime depots had not implemented the Distribution Standard System. As of
    May 2000, all DLA depots have implemented this automated system. In
    addition, DLA maintained that the majority of customer returns were sent to the
    prime depots. However, 3,900 FY 1999 customer returns of CRII assets,
    comprised of over 176,000 individual assets, were returned to the 22 non-prime
    depots and were not subject to review. The following figure shows that 28
    percent of the FY 1999 customer returns of CRII assets were returned to the
    non-prime depots.




                             Non-Prime
                              Depots               San Joaquin,
                               28%                  California
                                                       34%




                                    Susquehanna,
                                    Pennsylvania
                                         38%




    Percentage of Customer Returns on Nonconforming Assets During FY 1999,
    Prime Versus Non-Prime Depots

Customer Returns at Non-Prime Depots
    We visited two DLA non-prime depots at Norfolk, Virginia, and Red River,
    Texas. These depots received 964, or 25 percent of the 3,900 customer
    returned CRII assets to all non-prime depots for FY 1999.

    Defense Distribution Depot, Norfolk Procedures. Defense Distribution
    Depot, Norfolk has a program in place to identify nonconforming Navy
    customer returned assets. The Naval Inventory Control Point has submitted a
    Defective Material Summary listing, consisting of Navy-managed
    nonconforming assets to the Norfolk Depot since March 2000. The asset
    listings were manually entered into the depot’s Distribution Standard System.
    The Norfolk Depot program for screening nonconforming assets mirrored the
    CRII program procedures outlined for the prime depots.

                                          3
Defense Distribution Depot, Norfolk Review Results. Our review at the
Defense Distribution Depot, Norfolk was limited to assets returned to the depot
that were managed by the Defense Supply Center, Columbus. We examined
282 of the 634 customer returned assets, comprising 151 individual assets, that
were returned to the depot to determine whether the assets were suspended until
their condition was evaluated or whether the assets had been reissued without
reservation. Tables 1 and 2 show the results of the two reviews.



        Table 1. Customer Returned Assets – Norfolk Depot

                                        Customer Returned
                                             Assets          Percent
                    Not Suspended             272              96
                    Suspended                  10               4

                       Total                  282              100



        Table 2. Potentially Nonconforming Assets Reissued to Customers –
        Norfolk Depot

                                             Customer Returned
                                                  Assets             Percent
              Not reissued to customers              68                24
              Reissued to customers                214                 76

               Total                                 282               100



DLA may have reissued nonconforming returned assets to customers by limiting
the distribution of the CRII Program listing to the prime depots.

Defense Distribution Depot, Red River Procedures. The Red River Depot
also had a program in place for identifying nonconforming customer returned
assets. DLA material managers, quality assurance specialists, and customers
periodically notified the Red River Depot of potentially nonconforming assets
that should be inspected upon receipt. Upon notification, the assets and
descriptions of the deficiencies were entered into the Red River Distribution
Standard System. The Red River Depot program for screening nonconforming
assets also mirrored the CRII program procedures outlined for the prime depots.



                                    4
      Defense Distribution Depot, Red River Review Results. We expanded our
      analysis at the Red River Depot to include all nonconforming CRII assets
      identified at the three supply centers. We examined Defense Distribution
      System transaction histories for the 272 of the 330 customer returned assets,
      comprising 163 individual assets that were returned to the depot to determine
      whether the assets were suspended until their condition was evaluated or
      whether the assets had been reissued without reservation. Tables 3 and 4 show
      these results.


 Table 3. Customer Returned Assets – Red River Depot

                              Customer Returned
                                   Assets             Percent
           Not suspended            260                 96
           Suspended                  12                  4

               Total                  272              100




 Table 4. Potentially Nonconforming Assets Reissued to Customers –
 Red River Depot

                                     Customer Returned
                                          Assets             Percent
     Not reissued to customers              25                  9
     Reissued to customers                 247                 91

       Total                                 272              100



      We also visited the Red River Depot storage facilities to determine whether
      nonconforming assets were on-hand and available for issue. We photographed
      seven of the assets that should have been suspended but were found available for
      issue. (See Appendix B for a photograph and description of the seven assets).
      DLA may have reissued nonconforming assets to customers by limiting the
      distribution of the CRII Program listing to the prime depots.

Customer Returns at a Prime Depot
      Defense Distribution Depot, San Joaquin Procedures. The San Joaquin
      Depot received CRII asset listings from the supply centers and properly entered
      the nonconforming assets and the deficiency descriptions, if available, into the
      Distribution Standard System. When assets were returned to the San Joaquin
                                           5
     Depot, responsible depot personnel queried the Distribution Standard System to
     determine whether suspension or distribution instructions were noted. If the
     customer returned asset was included in the CRII program, the asset was
     properly suspended from future issues or properly disposed.

     Defense Distribution Depot San Joaquin Review Results. For FY 1999, the
     Defense Distribution Depot San Joaquin received 2,911 CRII customer returned
     assets. We selected 110 customer returned assets. Eighteen assets were
     returned before the asset appeared on the CRII listing and no further review was
     completed. We reviewed transaction histories for the remaining 92 customer
     returned assets to determine whether the assets were properly suspended and
     found that only seven of the customer returned assets were not properly
     suspended. The seven customer returned assets were subsequently reissued to
     customers. The seven returned assets that were not suspended were attributed to
     personnel oversight at the depot, and not a systemic deficiency. We brought
     this issue to the attention of responsible depot command personnel and no
     further action is required.

     We reviewed 10 assets at the depot storage areas to ensure that the suspended
     assets were physically segregated from assets available for issue. All
     10 San Joaquin Depot suspended assets that were reviewed were properly
     segregated in designated areas and included the proper quantity of items in
     suspension.

Improvements in the Notification to Depots
     Information Provided to the Depots. The Defense Supply Centers provided
     varying degrees of detail with their respective CRII listings. The Defense
     Supply Center, Columbus, provided the most detail involving the CRII listings.
     The Columbus center provided the national stock number, a brief description of
     the asset deficiency, and the contract number of the item, if known. The
     Philadelphia Supply Center provided the national stock number and the contract
     number, if known. The Richmond Supply Center only provided the national
     stock number. The San Joaquin Depot suspended 873 of the Richmond center’s
     FY 1999 customer returns because additional information that would isolate the
     nonconforming asset to a specific source was not always provided. Suspending
     all assets without identifying a specific contractor or contract number may be
     causing some assets to be unnecessarily suspended.

     Frequency of Reporting CRII Listings. We found that the San Joaquin Depot
     had not received any CRII listings for assets managed by the Philadelphia or
     Richmond centers for 14 and 15 months, respectively. The Philadelphia and
     Richmond centers tested 2,824 assets that resulted in 240 test failures in
     FY 1999. The CRII program listings would have been most likely increased as
     a result of test failures, yet these centers had not provided the San Joaquin
     Depot updated listings of CRII assets since March and April 1999, respectively.




                                        6
Conclusion
    Conceptually, the CRII was an effective process to prevent DLA depots from
    reissuing nonconforming customer returned assets. System-wide application of
    the CRII was needed because 28 percent of CRII returned assets were received
    by the non-prime depots. Since all depots implement the Distribution Standard
    System, minimal training or additional personnel would be needed to expand the
    program to the non-prime depots.

Recommendations, Management Comments and Audit
  Response
    We recommend that the Director, Defense Logistics Agency:

           1. Establish the Customer Return Improvement Program in all
              depots.

    Management Comments. DLA generally concurred and stated that the
    primary reasons that the Customer Return Improvement Program was only
    instituted at the Primary Distribution Sites were because these sites have
    received the majority of the returned assets and that only the Primary
    Distribution Sites operate a product test center. The product test centers have
    the capability to inspect suspected customer returns for technical conformance.
    DLA further stated that it was not cost effective to establish a product test center
    for each depot.

    Audit Response. DLA comments to this recommendation are responsive. We
    did not recommend establishing product test centers in conjunction with the
    Customer Return Improvement Program at each depot. We recommended
    establishing an effective program at all depots for screening potentially
    nonconforming assets received through customer returns.

           2. Issue timely and updated CRII listings to all depots.

           3. Direct that the Defense Supply Centers submit documentation on
              nonconforming assets to include:

               a. Contractor and contract numbers, if known;

               b. A brief description of the asset deficiency; and

               c. A point of contact responsible for the management of the
               nonconforming asset.




                                         7
Management Comments. DLA concurred and will direct the Product
Verification Managers, located at the DLA Supply Centers, to update their
Customer Returns Improvement Initiative listing of potentially conforming
assets on a quarterly basis. DLA concurred and stated that a proposed data
system enhancement would provide additional information directly to the
receiving examiner at the depots.




                                   8
Appendix A. Audit Process

Scope
    Work Performed. We reviewed and evaluated the administration of the CRII
    Program at the Defense Supply Centers and the depots. A list was compiled of
    CRII assets that were returned during FY 1999 to the depots visited. We
    examined Distribution Standard System transaction histories to determine
    whether the assets were suspended when returned to the depots and whether the
    assets were subsequently reissued. The date of the customer return action was
    compared to the date the asset was originally listed on the Defense Supply
    Centers CRII Program listing. If the return occurred before the asset was
    placed on the CRII listing, the return was disregarded from further review. For
    the remaining customer return actions, we determined whether the assets were
    properly suspended and whether they were subsequently reissued. Current
    screening procedures for identifying nonconforming customer returns at the
    depots were evaluated. From this information, we analyzed whether expansion
    of the CRII program depot-wide would be justifiable and feasible given the
    current capabilities of the non-prime depots.

    Limitations to Scope. Our scope was limited in that we did not include tests of
    the management control program. A subsequent report will discuss the
    adequacy of the Product Verification Program management controls as
    applicable to the primary audit objective.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Goals. In response to the GPRA, the Secretary of Defense annually
    establishes DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    performance measure:

    FY 2000 Performance Measure 2.3.5: Visibility and Accessibility of DoD
    Material Assets.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the defense inventory management high-risk area.

Methodology
    Use of Computer-Processed Data. We relied on computer-processed data
    from the Standard Automatic Material Management System and the Distribution
    Standard System. From the Standard Automatic Material Management System,
    we obtained customer returned CRII assets during FY 1999 and their relevant
    condition code and depot location. From the Distribution Standard System, we
    determined whether CRII assets were suspended upon their return and whether
    the potentially nonconforming assets were reissued. Although we did not
                                        9
    perform a formal reliability assessment of the computer-processed data, we
    determined that the date of the customer return, document number and condition
    codes agreed with the information in the computer-processed data. We did not
    find errors that would preclude use of the computer–processed data to meet the
    audit objectives, or that would change the conclusions in this report.

    Audit Type, Dates, and Standards. We performed this program audit from
    March through June 2000 in accordance with auditing standards issued by the
    Comptroller General of the United States, as implemented by the Inspector
    General, DoD.

    Contacts During the Audit. We visited or contacted individuals within DoD.
    Further details are available upon request.

Prior Coverage
    No prior coverage has been conducted on the Product Verification Program in
    the last 5 years.




                                      10
Appendix B. Nonconforming Assets Available
            for Issue
The following assets were photographed at the Defense Distribution Depot, Red River,
Texas. These assets were available for issue, however, they should have been
suspended upon return to the depot.




                                              1                                                2




                                              3                                                4

1.   Actuator assembly used on Browning 50 caliber machine gun, needs rivet verification.
2.   Flash suppressor used on M-16 machine gun, needs dimensions verification.
3.   Emergency exit light, vehicular light fixture, all returns suspended.
4.   Straight tube or hose adapter, used on Boeing Vertolcargo Transport Helicopter, needs fittings
     verification.




                                                    11
12
                                      5                                           6




                                                                  7

5. Pad assembly sway brace used on an F-15 bomb rack, verify items machined per
   drawings, suspend returns.
6. Cantilever mounting hub used on the A-10 aircraft, all returns suspended.
7. Globe valve, multipurpose high-pressure valve for oil, gas or water, verify
   completeness, suspend for testing.




                                               13
14
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics)
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Logistics Agency
  Director, Product Verification Program
  Director, Defense Supply Center Columbus
  Director, Defense Supply Center Philadelphia
  Director, Defense Supply Center Richmond
  Commander, Headquarters Defense Distribution Center
       Commander, Defense Distribution Depot Norfolk
       Commander, Defense Distribution Depot Red River
       Commander, Defense Distribution Depot San Joaquin

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       16
Defense Logistics Agency Comments




                      17
18
19
Audit Team Members
The Contract Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Terry L. McKinney
Nicholas E. Como
Lusk F. Penn
Christie L. Weigner
Iman A. Aquil
